      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




July 27, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Medicaid Hospital Outlier Payment Followup for Fiscal Years
                2004 Through 2006 (A-07-10-04160)


The attached final report provides the results of our review of Medicaid hospital outlier payments
for fiscal years 2004 through 2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-07-10-04160 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 MEDICAID HOSPITAL OUTLIER
    PAYMENT FOLLOWUP
     FOR FISCAL YEARS
    2004 THROUGH 2006




                      Daniel R. Levinson
                       Inspector General

                          July 2011
                        A-07-10-04160
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

The Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Within broad Federal requirements, each State makes decisions as to eligibility, types and ranges
of services, payment levels for services, and administrative and operating procedures.

Medicaid Inpatient Hospital Outlier Payments

State Medicaid agencies (State agency) may pay hospitals for Medicaid inpatient stays using a
prospective payment system that includes a preestablished amount for each discharge based on a
diagnosis-related group (DRG) code, which can vary by State. Although the base payment
within each DRG is fixed, hospitals may sustain significantly varying costs among patients
within a specific DRG. To protect hospitals against large financial losses from extraordinarily
high-cost cases, State agencies may supplement base payments with an additional payment
referred to as a Medicaid inpatient hospital cost outlier payment (Medicaid outlier payment).
Medicaid outlier payments are calculated using formulas that vary by State. Because hospitals
cannot identify actual costs for specific patients, the formulas apply cost-to-charge ratios to
current charges to convert those charges to estimated costs. The formulas include State-
determined threshold amounts used to evaluate each claim for outlier status. (The threshold
amount is the dollar amount by which the hospital’s estimated costs for an inpatient case must
exceed its prospective payments for that hospital to qualify for a Medicaid outlier payment.)

Medicare Inpatient Hospital Outlier Payments

CMS also administers the Medicare program, which has its own method of calculating outlier
payments. Pursuant to Federal statute, CMS sets the Medicare fixed-loss threshold at a level
projected to make Medicare outlier payments 5.1 percent of the total DRG payments for
inpatient care. (For this report, a “fixed-loss threshold” in the Medicare program serves the same
function as the “threshold amount” in the Medicaid program.) In 2003, CMS modified relevant
Medicare regulations after reporting that from Federal fiscal years (FY) 1998 to 2002, it paid
approximately $9.0 billion more in outlier payments than intended because the outlier calculation
overestimated costs for hospitals that increased their charges faster than actual costs. As a result
of the modified regulations, Medicare outlier payments decreased from 9.1 percent of total DRG
payments in December 2002 to 5.2 percent of total DRG payments in December 2003. More
recent data also indicate that the modification to the Medicare outlier regulations has been
effective in limiting outlier payments.

Prior Office of Inspector General Audits

Because the Medicaid programs could have been experiencing the same vulnerabilities that the
Medicare program identified and addressed in the 2003 modifications, in FY 2004 we conducted



                                                 i
audits of Medicaid outlier payments in eight selected State agencies. We determined that all
eight State agencies used cost reports that were at least 2 years old to calculate their
cost-to-charge ratios.

We also determined that if the eight State agencies had used more up-to-date cost-to-charge
ratios in a manner similar to Medicare’s revised outlier payment methodology, the State agencies
could have saved approximately $236.6 million from 1998 through 2003 in Medicaid outlier
payments made to the hospitals reviewed.

OBJECTIVE

Our objective was to determine whether the eight State agencies calculated Medicaid inpatient
hospital outlier payments to effectively limit the payments to extraordinarily high-cost cases.

SUMMARY OF FINDINGS

The eight State agencies did not calculate Medicaid outlier payments to effectively limit the
payments to extraordinarily high-cost cases. For all hospitals in seven of the eight States,
Medicaid outlier payments increased from approximately $913.0 million in FY 2004 to
approximately $1.2 billion in FY 2006. During this period, Medicaid outlier payments increased
substantially faster than Medicaid DRG base payments and Medicare outlier payments.

This occurred because the eight State agencies (1) used outdated cost-to-charge ratios to convert
charges to estimated costs and (2) did not reconcile Medicaid outlier payments upon cost report
settlement.

If the 8 State agencies had used the most recent cost reports to calculate the cost-to-charge ratios
for the 27 hospitals we reviewed, those State agencies could have, between FYs 2004 and 2006,
more effectively limited the payments to extraordinarily high-cost cases, thereby reducing those
Medicaid outlier payments by $320.0 million. Those State agencies could have used the savings
from lower Medicaid outlier payments to the 27 hospitals (and to other hospitals that
aggressively increased their charges) to make higher Medicaid outlier payments to hospitals that
did not increase charges faster than actual costs.

RECOMMENDATIONS

We recommend that CMS encourage all State agencies that make Medicaid outlier payments to
(1) use the most recent cost-to-charge ratios to calculate Medicaid outlier payments, (2) reconcile
Medicaid outlier payments upon cost report settlement or use an alternative method to ensure
that outlier payments are more closely aligned with actual costs, and (3) amend their State plans
accordingly.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our first and third recommendations.
CMS partially agreed with the second recommendation as it was phrased in our draft report.



                                                 ii
Regarding that second recommendation, CMS agreed that reconciliation would better align
outlier payments to the costs incurred by hospitals but added that “… it is more appropriate to
defer to States and let them determine what changes, if any, are appropriate.”

CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we revised our second recommendation to include a
provision for an alternative method to align outlier payments with actual costs.




                                                iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicaid Program .........................................................................................................1
         Medicaid Inpatient Hospital Outlier Payments ..............................................................1
         Medicare Inpatient Hospital Outlier Payments ..............................................................2
         Potential Problems With the Use of the Cost-to-Charge Ratio in Medicaid .................3
         Prior Office of Inspector General Audits .......................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................5
         Objective ........................................................................................................................5
         Scope ..............................................................................................................................5
         Methodology ..................................................................................................................5

FINDINGS AND RECOMMENDATIONS ..............................................................................6

      STATE MEDICAID PLAN REQUIREMENTS ...................................................................6

      MEDICAID OUTLIER PAYMENTS NOT LIMITED ........................................................7

      STATES DID NOT USE MOST RECENT COST-TO-CHARGE RATIOS .......................7

      EFFECT OF NOT USING MOST RECENT COST-TO-CHARGE RATIOS
        AND NOT RECONCILING MEDICAID OUTLIER PAYMENTS ...............................8

      RECOMMENDATIONS ......................................................................................................9

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...........................9

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................9

OTHER MATTERS ....................................................................................................................9

APPENDIXES

       A: MEDICARE AND MEDICAID INPATIENT HOSPITAL OUTLIER
          PAYMENTS IN RELATION TO DIAGNOSIS-RELATED GROUP
          BASE PAYMENTS FOR FISCAL YEARS 2003 THROUGH 2006

       B: SUMMARY OF COST-TO-CHARGE RATIOS




                                                                     iv
C: CALCULATION OF FUNDS THAT COULD HAVE BEEN PUT TO
   BETTER USE

D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                             v
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although
each State has considerable flexibility in designing and operating its Medicaid program, the State
must comply with applicable Federal requirements.

Within broad Federal requirements and guidelines for the administration of the Medicaid
program, each State makes decisions as to eligibility, types and ranges of services, payment
levels for services, and administrative and operating procedures.

Medicaid Inpatient Hospital Outlier Payments

We reviewed eight State Medicaid agencies (State agency) that we had previously audited.
Seven of these eight State agencies paid hospitals for Medicaid inpatient stays using a
prospective payment system that included a preestablished amount for each discharge based on a
diagnosis-related group (DRG) code, which can vary by State. The eighth State agency, in
Georgia, used both a DRG code and, in some cases, a hospital-specific cost-to-charge system.

Although the base payment within each DRG is fixed, hospitals may sustain significantly
varying costs among patients within a specific DRG. To protect hospitals against large financial
losses from extraordinarily high-cost cases, State agencies may supplement base payments with
an additional payment referred to as a Medicaid inpatient hospital cost outlier payment
(Medicaid outlier payment). 1

Medicaid outlier payments are calculated using formulas that vary by State. 2 The eight State
agencies calculated a hospital-specific cost-to-charge ratio based on actual costs and charges
reported on each hospital’s Medicaid cost report. Because hospitals cannot identify actual costs
for specific patients, the formulas apply cost-to-charge ratios to current charges to convert
charges to estimated costs. 3 The formulas include threshold amounts used to evaluate each claim

1
 Some State agencies make both day outlier payments and cost outlier payments for cases that have either a high
number of days or high costs compared with days and costs in similar cases.
2
  Because Title XIX of the Act specifies that each State will administer its Medicaid program in accordance with a
CMS-approved State plan, the State agencies’ formulas to calculate the Medicaid outlier payments do not have to be
the same from one State to the next.
3
 Criteria cited in this report use both “billed charges” and “charges.” The meanings of the terms are identical; we
will use the term “charges.”



                                                          1
to determine whether it is an extraordinarily high-cost claim and thus qualifies for outlier status.
(The threshold amount, determined by each State, is the specified dollar amount by which the
hospital’s estimated costs for a particular inpatient case must exceed its prospective payments for
that hospital to qualify for a Medicaid outlier payment.)

Medicare Inpatient Hospital Outlier Payments

CMS also administers the Medicare program. The Medicare program, like these Medicaid
programs, recognizes that some beneficiary cases are more complicated and expensive than
others and therefore require an additional amount—an outlier—to be paid to hospitals. Federal
regulations (42 CFR § 412.80(a) and (c)) specify that a hospital is to receive a Medicare outlier
payment when the estimated cost of a Medicare inpatient stay exceeds a fixed-loss threshold.
(A “fixed-loss threshold” in the Medicare program serves the same function as the “threshold
amount” in the Medicaid program.)

For several years and pursuant to Federal statute, 4 CMS set the fixed-loss threshold at a level
projected to make Medicare outlier payments 5.1 percent of the total DRG payments for
inpatient care. In 2003, CMS modified relevant Medicare regulations after reporting (in its 2003
Medicare Final Rule 5) that from Federal fiscal years (FY) 1998 to 2002, it paid approximately
$9.0 billion more in Medicare outlier payments than intended because the outlier calculation
overestimated costs for hospitals that increased charges faster than actual costs. CMS
determined that its pre-2003 outlier formula did not effectively maintain outlier payments at the
projected 5.1 percent of total Medicare payments for inpatient care.

In the Preamble to its 2003 Medicare Final Rule, CMS acknowledged that:

           … some hospitals have exploited [the current outlier payment methodology] to
           dramatically increase their outlier payments over a brief period of time by raising
           their charges in excess of increases in their costs. As these increases in outlier
           payments to those hospitals are reflected in the data used to calculate the outlier
           thresholds, they force the outlier threshold to rise…. The result is that hospitals
           that do not aggressively increase their charges do not receive outlier payments or
           receive reduced outlier payments for truly costly cases.

CMS determined that, as a result of the lengthy timelag between (1) the finalization date of the
latest settled cost report (which was used as the basis to calculate cost-to-charge ratios and
outlier payments) and (2) the timeframe of current charges, the charges generally continued to
increase faster than costs. Cost-to-charge ratios were consequently too high, which in turn
resulted in an overestimation of hospitals’ current costs per case.

The 2003 modifications changed the outlier payment calculation in several ways:



4
    Section 1886(d)(5)(A)(iv) of the Act. See also CMS’s explanation at 68 Fed. Reg. 34494, 34496 (Jun. 9, 2003).
5
    68 Fed. Reg. 34494, 34497 (Jun. 9, 2003).


                                                          2
    •    Federal regulations at 42 CFR § 412.84(i)(2) provide for Medicare outlier payments to be
         calculated with the cost-to-charge ratios from the most recent (“settled cost report or the
         most recent tentative settled”) cost report. This change was intended to reduce the
         timelag for updating the cost-to-charge ratio by a year or more.

    •    Federal regulations at 42 CFR § 412.84(i)(4) provide for a reconciliation to retroactively
         revise Medicare outlier payments during cost report settlement based on an updated
         hospital cost-to-charge ratio for the year that coincides with the case for which the outlier
         was calculated. This change was intended to account for hospitals that were rapidly
         increasing their charges faster than their costs. 6

In 2004, we audited the effectiveness of the modified Medicare outlier payment regulations. 7
We determined that as a result of the modified regulations, Medicare outlier payments decreased
from 9.1 percent of total DRG payments in December 2002 to 5.2 percent of total DRG
payments in December 2003.

More recent data also indicate that the modification to the Medicare outlier regulations has been
effective in limiting outlier payments. Each year CMS publishes, in the Federal Register, the
percentage of actual Medicare outlier payments related to the actual Medicare total DRG
payments. CMS publishes this information to establish whether or not it has met the projected
5.1-percent target. For FYs 2003 through 2006, the percentages were 5.7 percent, 3.5 percent,
4.0 percent, and 4.7 percent, respectively.

Potential Problems With the Use of the Cost-to-Charge Ratio in Medicaid

As long as a hospital’s actual costs and its charges change at roughly the same rate, the estimate
of costs, using the hospital-specific cost-to-charge ratio from a hospital’s most recent cost report,
will produce a reliable and reasonable result. However, when a hospital dramatically increases
its charges relative to costs and the State agency does not update the cost-to-charge ratio
accordingly or in a sufficiently timely manner, the estimated cost will no longer be reliable or
reflective of current conditions. Using an outdated cost-to-charge ratio may result in a higher
estimate of costs and may cause a State agency to make higher Medicaid outlier payments than
would be appropriate.

Prior Office of Inspector General Audits

The Medicaid programs could have been experiencing the same vulnerabilities that the Medicare
program identified and addressed in its 2003 regulation modifications. Consequently, in
FY 2004 we conducted audits of Medicaid outlier payments in eight selected State agencies. Our
6
  CMS’s Manual System Publication 100-04, Medicare Claims Processing, elaborates on 42 CFR § 412.84(i)(4) and
states that a fiscal intermediary or Medicare contractor is to reconcile outlier payments at the time of cost report final
settlement if: (1) the actual cost-to-charge ratio is found to be plus or minus 10 percentage points from the
cost-to-charge ratio used during that time period to make outlier payments and (2) total outlier payments in that cost
reporting period exceed $500,000.
7
 Audit of the Effectiveness of the Revised Medicare Outlier Payment Regulations for Inpatient Acute Care Hospitals
(A-07-04-04032), issued September 9, 2005.


                                                            3
objectives were to determine whether the eight State agencies’ methods of calculating Medicaid
outlier payments were reasonable. We determined that all eight State agencies made Medicaid
outlier payments using outdated cost-to-charge ratios to convert charges to estimated costs. The
eight State agencies used cost reports that were at least 2 years old to calculate their
cost-to-charge ratios.

We also determined that if the eight State agencies had used more up-to-date cost-to-charge
ratios in a manner similar to Medicare’s revised outlier payment methodology, they could have
saved approximately $236.6 million from 1998 through 2003 in Medicaid outlier payments made
to the hospitals reviewed. 8 The following table summarizes the scopes of, and potential savings
identified in, our prior audit reports.

                                                                                       Potential
                  State (Audit                Audit                   Basis of          Savings
                  Report No.)                Period                   Results        (in millions)
               Georgia                July 1998–
               (A-04-04-00009)        December 2002                 3 hospitals               $22.7
               Illinois
               (A-07-04-04031)        State FYs 1998–2002           3 hospitals                 56.5
               North Carolina
               (A-07-04-04038)        State FYs 1998–2003            Statewide                  89.4
               Ohio
               (A-05-04-00064)        State FYs 2000–2003            Statewide                  24.7
               New York
               (A-02-04-01022)        State FYs 1998–2002           3 hospitals                 21.5
               Pennsylvania           State FYs 1998–99
               (A-03-04-00211)        and 2002–03                   3 hospitals                 11.4
               Virginia
               (A-03-04-00212)        State FYs 2001–2003           3 hospitals                  5.8
               Texas                  State FYs 2000,
               (A-06-04-00051)        2002, 2003                    4 hospitals                 4.6
                 TOTAL                                                                       $236.6

At the time they were conducted, our eight prior audits were not part of a unified nationwide
review; consequently, their audit scopes varied, as did, to a lesser extent, their objectives and
recommendations. These prior audits, though, identified very similar vulnerabilities in the
methodologies used by the eight State agencies to calculate Medicaid outlier payments. That
fact, combined with the potential cost savings identified in those prior reports, led us to review
the same State agencies during a more recent audit period. This audit thus focused on Medicaid
outlier payment methodologies, which included the identification and review of any corrective
action the eight State agencies may have undertaken since the conclusion of the fieldwork in our
prior audits.

8
  In each of our eight prior audits, we gave our findings and recommendations to the State agency at the conclusion
of our fieldwork (in 2004). Thus, although some of these prior audits were issued within the audit scope of this
review, all the State agencies were aware of our findings and recommendations.



                                                         4
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the eight State agencies calculated Medicaid inpatient
hospital outlier payments to effectively limit the payments to extraordinarily high-cost cases.

Scope

We reviewed the same 8 State agencies that we reviewed in the prior audits, and we reviewed 27
sample hospitals, most but not all of which were reviewed in the prior audits. The 8 State
agencies paid the 27 sampled hospitals approximately $516.3 million in Medicaid DRG base
payments and $918.5 million in Medicaid outlier payments between FYs 2004 and 2006.

We did not perform a detailed review of the eight State agencies’ internal controls. We limited
our review of internal controls to obtaining an understanding of the eight State agencies’ policies
and procedures used to calculate and approve Medicaid outlier payments.

We analyzed the Medicaid outlier payments in our field offices.

Methodology

To accomplish our objective, we:

    •   reviewed the State Medicaid plans and policies associated with the Medicaid outlier
        payments for the 8 State agencies for FYs 2004 through 2006;

    •   reviewed our prior audits of the 8 State agencies and in particular reviewed those State
        agencies’ comments on our findings and recommendations;

    •   analyzed the 8 State agencies’ Medicaid outlier payment data by:

             o identifying Medicaid outlier payments for all hospitals in the 8 States, based on
               medical claims data provided to us by the relevant State agencies, 9

             o recalculating for each of the 27 sampled hospitals and for each FY what the
               Medicaid outlier payment would have been using the hospital’s cost-to-charge
               ratio from its most recent final or submitted cost report and so quantifying the
               impact of the State agencies’ use of outdated cost-to-charge ratios on their
               calculations of Medicaid outlier payments, and

             o calculating the percentage increase of total Medicaid DRG base payments and
               outlier payments on a per-admission basis using the medical claims data;

9
 The Pennsylvania State agency’s data were not included in this portion of our review because the Pennsylvania
State agency converted to a new claims system in March 2004 and did not distinguish between different types of
Medicaid outlier payments.


                                                        5
   •   compared Medicaid outlier payments to Medicare outlier payments for hospitals in the
       8 State agencies to evaluate the impact of using outdated cost-to-charge ratios on the
       Medicaid program relative to the impact of using the most recent cost-to-charge ratios on
       the Medicare program; and

   •   discussed more current Medicaid outlier payment methodologies and, where applicable,
       corrective action based on our prior audits with officials of the 8 State agencies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The eight State agencies did not calculate Medicaid outlier payments to effectively limit the
payments to extraordinarily high-cost cases. For all hospitals in seven of the eight States,
Medicaid outlier payments increased from approximately $913.0 million in FY 2004 to
approximately $1.2 billion in FY 2006. During this period, Medicaid outlier payments increased
substantially faster than Medicaid DRG base payments and Medicare outlier payments.

This occurred because the eight State agencies (1) used outdated cost-to-charge ratios to convert
charges to estimated costs and (2) did not reconcile Medicaid outlier payments upon cost report
settlement.

If the 8 State agencies had used the most recent cost reports to calculate the cost-to-charge ratios
for the 27 hospitals we reviewed, those State agencies could have, between FYs 2004 and 2006,
more effectively limited the payments to extraordinarily high-cost cases, thereby reducing those
Medicaid outlier payments by $320.0 million. Those State agencies could have used the savings
from lower Medicaid outlier payments to the 27 hospitals (and to other hospitals that
aggressively increased their charges) to make higher Medicaid outlier payments to hospitals that
did not increase charges faster than actual costs.

STATE MEDICAID PLAN REQUIREMENTS

The eight State Medicaid plans provide for the use of Medicaid outlier payments to hospitals for
extraordinarily high-cost cases. For example, the Illinois Medicaid State plan,
Attachment 4.19-A, chapter V, section C, “Payments for Extraordinarily High Cost Cases,”
states that the Illinois State agency will make an additional payment to hospitals to cover costs in
cases when the applicable threshold is exceeded. Although the State Medicaid plans for the
other seven State agencies do not always use the term “extraordinarily high-cost,” they provide
criteria for Medicaid outlier payments that are similar to the language in the Illinois Medicaid
State plan.




                                                 6
MEDICAID OUTLIER PAYMENTS NOT LIMITED

The eight State agencies did not calculate Medicaid outlier payments to limit the payments to
extraordinarily high-cost cases. For all hospitals in seven of the eight States, Medicaid outlier
payments increased from approximately $913.0 million in FY 2004 to approximately $1.2 billion
in FY 2006. For this time period, the average Medicaid outlier payment per admission for all
hospitals in these seven States increased by 25.2 percent. Medicaid outlier payments also
increased substantially faster than Medicare outlier payments and Medicaid DRG base payments.

The substantially higher rate of increase in Medicaid outlier payments relative to both Medicare
outlier payments and Medicaid DRG base payments becomes even more pronounced when we
use data from FY 2003—the FY before the first full year that CMS’s modified Medicare
regulations were effective—as the baseline for these comparisons.

   •   From FY 2003 to FY 2006, the average Medicare DRG base payment per admission for
       all hospitals in seven of the eight States increased by 21.0 percent, and the average
       Medicare outlier payment per admission for the same hospitals increased by 28.2 percent.
       In other words, Medicare outlier payments were increasing at roughly similar rates as the
       rates of increase in Medicare DRG base payments.

   •   During the same period, the average Medicaid DRG base payment per admission for all
       hospitals in these seven States increased by 2.6 percent. However, the average Medicaid
       outlier payment per admission for the same hospitals increased by 56.7 percent, a
       significantly higher rate of increase than was the case for the average Medicaid DRG
       base payment per admission.

For the hospitals we reviewed, the Medicaid percentage of outlier payments in relation to total
DRG base payments was generally higher than the Medicare percentage of outlier payments in
relation to total DRG base payments (Appendix A). In Illinois, Hospital C received Medicaid
outlier payments that were 136.6 percent of total DRG base payments, compared with Medicare
outlier payments that were 4.0 percent of total DRG base payments. In Georgia, Hospital D
received Medicaid outlier payments that were 518.2 percent of total DRG base payments,
compared with Medicare outlier payments that were 5.8 percent of total DRG base payments.

STATES DID NOT USE MOST RECENT COST-TO-CHARGE RATIOS

The eight State agencies did not limit Medicaid outlier payments because (1) they did not use the
most recent cost report as the basis for the calculation of cost-to-charge ratios and (2) they did
not reconcile Medicaid outlier payments upon cost report settlement. CMS employs these
measures to limit Medicare outlier payments.

Moreover, using the cost-to-charge ratios from the most recent cost report reduces the timelag
for updating the cost-to-charge ratio by a year or more, which helps prevent inpatient hospitals
from receiving Medicaid outlier payments on the basis of high charges rather than high costs.
CMS uses the reconciliation to account for differences between (1) the cost-to-charge ratio used
to pay a particular claim at the time of its original submission by the inpatient hospital and


                                                7
(2) the cost-to-charge ratio determined at the final settlement of the cost reporting period during
which the patient’s discharge occurred.

Appendix B shows each State agency’s cost-to-charge ratios used and the cost-to-charge ratios
we recalculated based on the latest cost reports for FYs 2004 and 2006.

EFFECT OF NOT USING MOST RECENT COST-TO-CHARGE RATIOS
AND NOT RECONCILING MEDICAID OUTLIER PAYMENTS

Because the eight State agencies did not use the most recent cost-to-charge ratios to calculate
Medicaid outlier payments and did not reconcile Medicaid outlier payments upon cost report
settlement, these payments increased substantially during our audit period. If the eight State
agencies (and by extension, all State agencies that make Medicaid outlier payments) do not
amend their policies and procedures to discontinue use of outdated cost-to-charge ratios,
Medicaid outlier payments may continue to increase disproportionately as certain hospitals
increase charges faster than costs. At the same time, hospitals that do not increase charges as
aggressively could continue to be adversely affected, particularly if State agencies make outlier
formula changes (e.g., increasing outlier thresholds) in an attempt to restrain Medicaid outlier
payment growth. 10

For example, the Illinois State agency used a hospital-specific cost-to-charge ratio that was
frozen by Illinois statute in 1995 and used a calculation to convert charges to costs based on
1989 cost report data. If the most recent cost-to-charge ratio had been used to calculate the
Medicaid outlier payments, one hospital (Hospital C) would have received approximately
$30.3 million less in Medicaid outlier payments for FYs 2004 through 2006. 11

If the 8 State agencies had used the most recent cost reports to calculate the cost-to-charge ratios
that convert charges to estimated costs for the 27 hospitals we reviewed, those State agencies
could have, between FYs 2004 and 2006, more effectively limited the payments to
extraordinarily high-cost cases, thereby reducing those Medicaid outlier payments by
$320.0 million.

If the 8 State agencies had made changes to their Medicaid outlier payment formulas similar to
the changes CMS made to the Medicare outlier payment formula, those State agencies could
have used the savings from lower Medicaid outlier payments to these 27 hospitals (and to other
hospitals that aggressively increased their charges) to make higher Medicaid outlier payments to
hospitals that did not increase charges faster than costs. Using the most recent cost reports
would have enabled State agencies to calculate and make Medicaid outlier payments in the same
manner as Medicare outlier payments, thus putting those Medicaid funds to better use.

10
  The CMS Administrator testified on Medicare outlier payments before the Senate Appropriations Subcommittee
on Labor, Health and Human Services and Education on March 11, 2003. He said that as a direct result of the
increased Medicare outlier thresholds, “… more hospitals have been forced to absorb the cost of the complex cases
they treat, while a relatively small number of hospitals that have been aggressively gaming the current rules benefit
by getting a hugely disproportionate share of Medicare outlier payments.”
11
     We based the OIG-recalculated cost-to-charge ratios on the latest cost reports.



                                                             8
Appendix C displays a comparison for the eight States and hospitals reviewed of the total
amounts of actual Medicaid outlier payments made; the total amounts of Medicaid outlier
payments we recalculated using the most recent cost-to-charge ratios; and the differences
between these two amounts for each hospital, or Medicaid funds that could have been put to
better use.

RECOMMENDATIONS

We recommend that CMS encourage all State agencies that make Medicaid outlier payments to
(1) use the most recent cost-to-charge ratios to calculate Medicaid outlier payments, (2) reconcile
Medicaid outlier payments upon cost report settlement or use an alternative method to ensure
that outlier payments are more closely aligned with actual costs, and (3) amend their State plans
accordingly.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our first and third recommendations.
CMS partially agreed with the second recommendation as it was phrased in our draft report.
Regarding that second recommendation, CMS agreed that reconciliation would better align
outlier payments to the costs incurred by hospitals but added that “… it is more appropriate to
defer to States and let them determine what changes, if any, are appropriate.”

CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we revised our second recommendation to include a
provision for an alternative method to align outlier payments with actual costs.

                                      OTHER MATTERS

After our previous audits, some of the eight State agencies implemented corrective action to limit
Medicaid outlier payments to extraordinarily high-cost cases. The implementation dates of the
revised procedures were after our most recent audit period.

The New York State agency implemented procedures similar to those in Medicare that have
proved effective in limiting outlier payments. This suggests that the revised procedures will
limit outlier payments to extraordinarily high-cost cases. In contrast, the Illinois State agency
increased the outlier threshold in State FYs 2006 and 2007, but the Medicaid outlier payments
for the three hospitals we reviewed only slightly decreased. Increasing the outlier threshold did
not address the outdated cost-to-charge ratio. Thus, the change was not effective in ensuring that
outlier payments were limited to extraordinarily high-cost cases.




                                                9
APPENDIXES
        APPENDIX A: MEDICARE AND MEDICAID INPATIENT HOSPITAL OUTLIER
              PAYMENTS IN RELATION TO DIAGNOSIS-RELATED GROUP
              BASE PAYMENTS FOR FISCAL YEARS 2003 THROUGH 2006 1
                                      MEDICARE                                              MEDICAID
                        DRG 2                           Outlier                                                 Outlier
                         Base           Outlier       Payment as            DRG Base          Outlier        Payment as a
                       Payment         Payment       a Percentage            Payment         Payment         Percentage of
                         per             per         of DRG Base               per             per            DRG Base
                      Admission       Admission        Payments             Admission       Admission          Payment
   Georgia
Hospital D                $18,187          $1,052            5.79%                 $451          $2,339           518.21%
Hospital E                    n/a 3            n/a                                  978           6.222           636.33%
Hospital F                 11,624           1,064            9.15%                  133             797           599.72%
    Illinois
Hospital A                 18,858             229            1.21%                   567               144         25.40%
Hospital B                 20,934           1,359            6.49%                 1,015               540         53.20%
Hospital C                 13,572             539            3.97%                   514               702        136.58%
North Carolina
Hospital G                 17,811             740            4.15%               11,222           2,461            21.93%
Hospital H                 23,634           1,488            6.30%               18,633           4,705            25.25%
Hospital I                 12,038             391            3.25%                7,665           1,184            15.45%
Hospital J                 11,906             242            2.03%                7,153             294             4.11%
     Ohio
Hospital U                 19,741             539            2.73%                 6,989          3,273            46.84%
Hospital V                 12,817             148            1.15%                 3,602            786            21.83%
Hospital W                     n/a             n/a                                 4,570         11,073           242.29%
Hospital X                     n/a             n/a                                 5,992          9,932           165.75%
  New York
Hospital K                 28,162           1,360            4.83%                 5,916               252          4.26%
Hospital L                 27,136           1,061            3.91%                 6,737               345          5.12%
Hospital M                 24,703             394            1.60%                 6,134               217          3.54%
   Virginia
Hospital Y                 23,096             946            4.10%                 8,948          1,436            16.05%
Hospital Z                 21,841           1,106            5.06%                 6,684          1,084            16.21%
Hospital AA                    n/a             n/a                                 7,671          1,467            19.13%
     Texas
Hospital N                 17,802           1,971          11.07%                11,377           1,897            16.67%
Hospital O                 20,671             664           3.21%                 3,890             332             8.54%
Hospital P                 19,972             532           2.66%                 2,644             194             7.32%
Hospital Q                 15,767             467           2.96%                 3,389             318             9.38%



  1
   The Pennsylvania State agency’s data were not included in this portion of our review because the Pennsylvania
  State agency converted to a new claims system in March 2004 and did not distinguish between different types of
  Medicaid outlier payments.
  2
      Diagnosis-related group.
  3
      Not applicable. This provider is not a Medicare inpatient prospective payment system hospital.
                                                                                                            Page 1 of 2

                        APPENDIX B: SUMMARY OF COST-TO-CHARGE RATIOS 1

                                                    OIG 2-                                    OIG-          Status of Cost
                                                 Recalculated                             Recalculated     Reports Used for
                                                  2004 Cost-                               2006 Cost-     OIG-Recalculated
                      2004 Cost-to-Charge         to-Charge      2006 Cost-to-Charge       to-Charge       Cost-to-Charge
                          Ratio Used                Ratio            Ratio Used              Ratio        Ratios (2004/2006) 3
   Georgia
Hospital D                              0.4850         0.2580                    0.4850          0.1980       As Submitted
Hospital E                              0.5670         0.3720                    0.5670          0.3450      Final/Amended
Hospital F                              0.4490         0.3540                    0.4490          0.3960       Final/Settled

   Illinois
Hospital A                              0.5072         0.3407                    0.5072          0.2914    Final/As Submitted
Hospital B                              0.5896         0.4505                    0.5896          0.4126    Final/As Submitted
Hospital C                              0.7059         0.3758                    0.7059          0.4099     Final/Preliminary

North Carolina
                                                                    0.5007 or 0.5056 or
Hospital G                             0.5392          0.4623                    0.5240          0.4763          As Submitted
Hospital H                   0.6630 or 0.6697          0.4703          0.6907 or 0.7413          0.5113          As Submitted
                                                                    0.4939 or 0.5039 or
Hospital I                              0.4175         0.4835                    0.5162          0.4803          As Submitted
                                                                    0.6308 or 0.6315 or
Hospital J                              0.6608         0.5765                    0.6803          0.6308          As Submitted

     Ohio
Hospital U                   0.6000 or 0.8000          0.3200                    0.3600          0.3100     Final/Preliminary
                                                                    0.3900 or 0.6000 or
Hospital V                   0.6000 or 0.8000          0.3900                    0.8000          0.3300    Final/As Submitted
Hospital W                   0.7300 or 0.7500          0.5800          0.5800 or 0.6800          0.6000           Final
Hospital X                             0.5900          0.6500                    0.6500          0.5700          Interim

  New York
Hospital K                              0.4478         0.4320                    0.4285          0.4099          As Submitted
Hospital L                              0.5161         0.4495                    0.4584          0.3964          As Submitted
Hospital M                              0.3535         0.2981                    0.2981          0.2562          As Submitted




     1
         Entries with more than one figure show when the State agency used more than one cost-to-charge ratio.
     2
         Office of Inspector General.
     3
      We based the OIG-recalculated cost-to-charge ratios on the latest cost reports. This column shows the status of the
     cost reports that we used to recalculate the 2004 and 2006 cost-to-charge ratios, separated by a slash.
                                                                                                Page 2 of 2

                                             OIG-                                   OIG-         Status of Cost
                                         Recalculated                           Recalculated   Reports Used for
                                          2004 Cost-                             2006 Cost-    OIG-Recalculated
                2004 Cost-to-Charge       to-Charge     2006 Cost-to-Charge      to-Charge      Cost-to-Charge
                    Ratio Used              Ratio           Ratio Used             Ratio       Ratios (2004/2006)
 Pennsylvania
Hospital R                     0.2757         0.1005                  0.2757         0.1082          Final
Hospital S                     0.4102         0.2541         0.3376 or 0.4102        0.2412          Final
                                                          0.3730 or 0.3884 or
Hospital T                     0.3730         0.4257                   0.4065        0.3884          Final

   Virginia
Hospital Y                     0.6724         0.4653                  0.5656         0.3703     Cost Settlement
Hospital Z                     0.4653         0.3480                  0.4588         0.3839     Cost Settlement
Hospital AA                    0.5018         0.4115                  0.4693         0.3891     Cost Settlement

    Texas
                   0.2400 or 0.2600 or
Hospital N                      0.2900        0.2300         0.2000 or 0.2300        0.2400           Final
Hospital O            0.4600 or 0.5300        0.4500         0.4500 or 0.5400        0.5100      Tentative/Final
Hospital P            0.4700 or 0.5200        0.4100         0.4200 or 0.4500        0.4300      Final/Tentative
Hospital Q            0.5600 or 0.5900        0.5600         0.5500 or 0.5900        0.5400           Final
                                                                                                     Page 1 of 2

             APPENDIX C: CALCULATION OF FUNDS THAT COULD HAVE
                           BEEN PUT TO BETTER USE

                                      Total Original       Total Medicaid Outlier            Funds That
                                        Medicaid           Payments Using OIG-               Could Have
                                         Outlier                Recalculated                 Been Put to
                                        Payments           Cost-to-Charge Ratios             Better Use 1
             Georgia
     Hospital D                         $ 58,935,240                      $11,421,416         $47,513,824
     Hospital E                          116,273,928                       59,265,204          57,008,724
     Hospital F                           18,573,717                       12,274,519           6,299,198
                                                                                             $110,821,746

              Illinois
     Hospital A                            15,493,572                        5,101,777         10,276,265
     Hospital B                            33,909,965                       16,334,958         15,577,428
     Hospital C                            49,400,188                       18,839,937         30,254,967
                                                                                              $56,108,660

        North Carolina
     Hospital G                            11,938,368                        9,575,652          2,326,392
     Hospital H                            77,179,018                       39,804,296         35,750,833
     Hospital I                            53,971,186                       41,168,841         12,449,239
     Hospital J                             1,730,076                        1,582,040            148,036
                                                                                              $50,674,500

              Ohio
     Hospital U                           32,433,851                       18,566,028          13,867,823
     Hospital V                           10,087,339                        6,139,941           3,947,398
     Hospital W                          128,450,010                      114,592,428          13,857,582
     Hospital X                          117,673,334                      109,890,961           7,782,373
                                                                                              $39,455,176

           New York
     Hospital K                            21,407,874                       17,931,248          3,476,626
     Hospital L                            26,511,580                       12,316,391         14,195,189
     Hospital M                            19,610,654                       11,872,289          7,738,365
                                                                                              $25,410,180




1
 Totals in this column do not always equal the difference between the original and recalculated amounts. This is
because some State agencies make both day outlier payments and cost outlier payments for cases that have either a
high number of days or high costs compared with days and costs in similar cases. Because this issue affected only
two out of the eight State agencies we reviewed, we did not include day outlier payments in this table.
                                                                   Page 2 of 2

                   Total Original   Total Medicaid Outlier   Funds That
                     Medicaid       Payments Using OIG-      Could Have
                      Outlier            Recalculated        Been Put to
                     Payments       Cost-to-Charge Ratios    Better Use
    Pennsylvania
Hospital R           $17,949,640                $5,385,329    $12,564,311
Hospital S            17,387,692                 9,385,444      8,002,248
Hospital T            11,024,131                12,100,644     (1,076,513)
                                                              $19,490,046

       Virginia
Hospital Y            14,200,923                 5,412,536      8,788,387
Hospital Z             8,369,108                 4,365,727      4,003,381
Hospital AA            3,875,517                 2,272,747      1,602,770
                                                              $14,394,538

         Texas
Hospital N             6,355,816                 5,415,215         845,227
Hospital O            11,370,273                12,969,879     (1,628,907)
Hospital P            14,147,065                11,678,510       1,933,746
Hospital Q            20,192,526                17,348,669       2,507,212
                                                                $3,657,278
                   Total Funds That Could Have Been Put
                   to Better Use                             $320,012,124
                                                                                                                             Page 1 of 2


APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 


    /"""ICto.....
(          ~          DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Cenlltl'8 lor Medicare & Medicaid ServlcH

    ,~                                                                                         Administrator
                                                                                               Washington. DC 20201




                    DATE:          HAY 0 4 2011
                    TO:           Daniel R. Levinson
                                  Inspector General

                    FROM:         Donald M. Berwick, M.D.
                                  Administrator

                    SUBJECT: 	 Office ofInspector General (DIG) Draft Report: "Medicaid Hospital Outlier
                               Payment Follow-up for Fiscal years 2004 Through 2006" (A-07-10-04160)


                    Thank you for the opportwrity to review and comment on the above-referenced report. The
                    Centers for Medicare & Medicaid Services (CMS) appreciates the contributions and valuable input
                    from the DIG on the subject of this study. This report examined inpatient hospital outlier payment
                    policies in eight State Medicaid programs. It is a follow-up.to audits conducted in 2004 by the
                    OIG for the years 1998 through 2003. In this report, the OIG found that these States were not
                    effective in limiting outlier payments for extraordinary high-cost cases because they used outdated
                    cost-to-charge ratios and did not reconcile Medicaid outlier payments to costs upon cost report
                    settlements. The OIG estimated if these States had adopted procedures recommended in the 2004
                    report, Medicaid payments could have been reduced by $320 million for the 27 hospitals included
                    in the review between fiscal years 2004-2006.

                    OIG Recommendation

                    CMS encourage all State agencies that make Medicaid outlier payments to use the most recent
                    cost-to-charge ratios to calculate Medicaid outlier payments.

                    CMS Response

                    We agree with this recommendation. This report is very timely as States across the country are
                    looking for ways to appropriately contain Medicaid costs. We plan to incorporate this
                    recommendation into our guidance to States on identifying efficiencies in their payment programs.

                    OIG Recommendation

                     CMS encourage all State agencies that make Medicaid outlier payments to reconcile Medicaid 

                     outlier payments upon cost report settlement. 

                                                                                                       Page 2 of 2




Page 2- Daniel R. Levinson

CMS Response

We partially agree with this recommendation. Under the Medicaid program, States are
responsible for establishing payment rates for inpatient hospital services, including outlier
policies. While we agree cost reconciliation would better align State outlier payments to the costs
incurred by hospitals for qualifying cases, we believe other alternatives may be available should
States wish to revise their payment methodologies. For example, rather than adopting a cost
reconciliation process, States might wish to maintain a prospective approach such as applying a
factor to the earlier period cost to charge ratios to better align them with current period costs.
Because outlier payments fit within an overall reimbursement scheme, States may wish to
examine their payment policies more broadly before altering any specific elements to avoid
unintended consequences. Rather than encouraging States to make a specific change in
methodology, given their primary role in rate setting, we believe it is more appropriate to defer to
States and let them determine what changes, ifany, are appropriate.

OIG Recommendation

eMS encourage all State agencies that make Medicaid outlier payments to amend their State plans
accordingly.

CMS Response

We agree with this recommendation. We will provide States with this report and will encourage
them to examine their outlier payment policies and make amendments to their State plan as they
determine appropriate.

We appreciate the efforts that went into this report and look forward to working with the OIG on
this and other issues.
